MAY 9, 2006
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 NASA SHOULD IMPROVE EMPLOYEE AWARENESS OF
  REQUIREMENTS FOR IDENTIFYING AND HANDLING
   SENSITIVE BUT UNCLASSIFIED INFORMATION



                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-06-010-REDACTED (ASSIGNMENT NO. A-04-013-00)
MAY 9, 2006




                                                                                                  IN BRIEF

             NASA SHOULD IMPROVE EMPLOYEE AWARENESS OF
              REQUIREMENTS FOR IDENTIFYING AND HANDLING
               SENSITIVE BUT UNCLASSIFIED INFORMATION
                                                                                                 The Issue

  The National Aeronautics and Space Act of 1958 (Space Act) requires NASA to “provide
  for the widest practicable and appropriate dissemination of information concerning its
  activities and the results thereof.” This must be accomplished in a manner consistent
  with U.S. laws and regulations, Federal information policy, intellectual property rights,
  and technology transfer protection requirements. NASA faces many challenges in
  balancing its Space Act mandate with the requirements to protect certain classes of
  information that are not suitable for dissemination to the public. Crucial to the success of
  meeting those challenges is the need for NASA to (1) ensure that its policies and
  procedures for sensitive but unclassified (SBU)1 information are complete and (2) create
  and maintain employee awareness of their responsibilities to safeguard SBU information.

                                                                                                      Results

  Overall, NASA’s policies and procedures for handling SBU information are consistent
  with Federal laws and regulations. Prior to November 2005, the Agency’s primary
  Security Program document did not cover all the types of SBU information that NASA
  uses, nor were SBU requirements in the Security Program document cross-referenced to
  other documents that contained additional requirements for specific types of SBU
  information. Revisions incorporated into the November 2005 version of NPR 1600.1,
  “NASA Security Program Procedural Requirements w/Change 1 (11/08/2005),” assuaged
  our concerns about the adequacy of the Agency’s policies and procedures for SBU
  information. However, we found that NASA lacks a comprehensive SBU training
  program for civil servants and contractors on the requirements for protecting SBU
  information.



  1
      Until November 2005, NASA used the term Administratively Controlled Information, or ACI, to identify
      official information of a sensitive but unclassified nature that needed to be protected against inappropriate
      disclosure. Such information officially became Sensitive But Unclassified on November 8, 2005, when
      NASA issued its revised NASA Procedural Requirements (NPR) 1600.1, “NASA Security Procedural
      Requirements w/Change 1.”




  REPORT NO. IG-06-010-R
                                                                                     IN BRIEF




Management Action

In November 2005, NASA revised the requirements for SBU information. Specifically,
the new policies and procedures increased the number of SBU information types
recognized by NASA and cross-referenced several types of SBU information to other
documents that contained additional requirements. Although the new requirements
emphasized the importance of establishing and maintaining an adequate level of
education and awareness to safeguard and prevent unauthorized disclosure of SBU
information, they did not detail a comprehensive SBU training program. Therefore, we
are recommending that NASA establish an Agency-wide comprehensive training
program that specifies the policies and procedures for identifying and handling SBU
information.

In response to a draft of this report, the Assistant Administrator, OSPP, concurred with
the recommendation and provided information on corrective actions planned (see
Appendix D). We consider management’s comments to be responsive and the
recommendation resolved, although it will remain open until all actions have been
completed and verified. No response to this final report is required.




ii                                                               REPORT NO. IG-06-010-R
MAY 9, 2006




                                                           Contents

  INTRODUCTION
     Background __________________________________________ 1
     Objectives ___________________________________________ 1
     Meta-Data Report _____________________________________ 2

  RESULTS
     Finding A: Policies and Procedures Covering SBU-Information ___ 3
     Finding B: Comprehensive SBU-Information Training Is
                 Needed ___________________________________ 6

  APPENDIX A
     Scope and Methodology _______________________________ 11
     Review of Internal Controls _____________________________ 12
     Prior Coverage_______________________________________ 12

  APPENDIX B
     Redacted ___________________________________________ —


  APPENDIX C
     Comparison of Federal and Selected Agencies’ SBU Requirements
       with NASA’s ______________________________________ 14

  APPENDIX D
     Management Comments _______________________________ 31

  APPENDIX E
     Report Distribution ___________________________________ 33




  REPORT NO. IG-06-010-R
MAY 9, 2006




                                                                        INTRODUCTION


Background

  NASA generates, receives, disseminates, and maintains an enormous amount of
  information, much of which is of an unclassified and nonsensitive nature with few
  restrictions on its use and dissemination. The security of this information is the direct,
  immediate, and inherent responsibility of all NASA personnel, contractors, and others
  granted access to it.

  NASA must comply with several Federal laws and regulations that address disseminating
  information. These laws and regulations can be confusing, however, because their
  definitions of SBU information are not precise and some laws promote dissemination
  while other laws restrict or prohibit dissemination. For example, the Computer Security
  Act of 1987 defines sensitive information as any information for which the loss, misuse,
  or unauthorized access to, or modification of, could adversely affect the national interest
  or the conduct of Federal programs, or the privacy to which individuals are entitled but
  has not been authorized to be kept secret. However, the Act does not specify the types of
  information that are included in sensitive information. Whereas the Computer Security
  Act requires protection of information such as personal and proprietary information from
  unauthorized disclosure, the Space Act promotes dissemination and requires the widest
  practicable and appropriate dissemination of information about NASA’s activities.

  Other laws restrict or prohibit dissemination of SBU information. For example, the
  Privacy Act prohibits dissemination of an individual’s personal information without prior
  written consent of the individual. In addition, the Freedom of Information Act (FOIA)
  requires that agencies make information available to the public but exempts from
  disclosure internal personnel rules and practices, information specifically exempted by
  other statutes, trade secrets, personnel and medical files, and law enforcement records.
  The Homeland Security Act of 2002, which modifies FOIA, exempts from disclosure
  critical infrastructure information. Export control regulations restrict exportation of
  technical data relating to the Space Shuttle, satellites, and the International Space Station.


Objectives

  The overall objective of our audit was to determine whether NASA established adequate
  controls that would protect SBU information. Specifically, we sought to determine
  whether NASA had (1) developed and issued policies and procedures that adequately
  define, identify, and protect all sensitive information with an emphasis on scientific and




  REPORT NO. IG-06-010-R                                                                       1
                                                                                               INTRODUCTION



 technical sensitive information; (2) assigned accountability for the security of sensitive
 information; (3) established policies and procedures to properly screen sensitive
 information for possible inclusion in formal classification schemes;2 and (4) established
 adequate policies and procedures for education and training to create user awareness of
 the need to recognize and properly safeguard sensitive information. See Appendix A for
 details of the audit’s scope and methodology, our review of internal controls, and a list of
 prior coverage.


Meta-Data Report

 As part of our review of NASA’s policies and procedures to protect SBU information, we
 sampled NASA documents available on the Internet and found that they contained meta-
 data3 that could be considered SBU information. In December 2005, we issued a report
 to the NASA Chief Information Officer and recommended that NASA (1) develop
 policies and procedures to define, recognize, and protect meta-data that may be contained
 in electronic documents, and (2) provide user awareness training on the meta-data
 policies and procedures developed pursuant to the preceding recommendation. See
 Appendix B for a copy of the report. [Appendix B has been redacted from this version.]




 2
     During the course of the audit, we dropped objective 3 because it was beyond the scope of the planned
     work.
 3
     Meta-data is data that describes other data. For information purposes, meta-data refers to the data
     generated when a Microsoft Word, Excel, or PowerPoint document is created or revised that describes
     how, when, and by whom a particular set of data was collected and how the data was formatted.




 2                                                                              REPORT NO. IG-06-010-R
RESULTS




                                                     FINDING A: POLICIES AND
                                                       PROCEDURES COVERING
                                                           SBU INFORMATION

          Although there are no Government-wide standards for defining what constitutes
          SBU information, NASA’s policies and procedures are consistent with Federal
          laws and selected agencies’ requirements for SBU information. The Agency has
          effectively assigned accountability for the security of sensitive information to
          OSPP. However, prior to November 2005, NASA’s policies and procedures did
          not identify all the types of SBU information that NASA uses, and the various
          policies and procedures regulating security and management of SBU information
          Agency-wide were not cross-referenced to each other. On November 8, 2005,
          NASA revised its Agency Security Program, including the policies and
          procedures covering SBU information. The revisions assuaged our concerns
          about the adequacy of the Agency’s policies and procedures for SBU information.


Federal Laws and Regulations and Selected Agencies’ SBU
  Requirements

  With the exception of certain types of information protected by statute, standard criteria
  and terminology defining the types of information warranting designation as SBU does
  not exist within the Federal government. To help us identify SBU-related laws,
  regulations, and other Federal agencies’ directives that could apply to NASA, we
  contracted with the Federal Research Division (FRD) of the Library of Congress. FRD
  gave us a report that set forth the statutes, regulations, and Executive Branch directives
  that define and govern access to SBU information. We compared the SBU requirements
  identified in the FRD report with NASA’s and found that the Agency has in place
  policies and procedures that are consistent with Federal laws and selected agencies’
  requirements. Appendix C shows the comparison.


Accountability for SBU Information

  The Assistant Administrator for OSPP is responsible for overseeing Agency-wide
  implementation and integration of NPR 1600.1, “NASA Security Program Procedural
  Requirements w/Change 1,” which establishes Agency-wide requirements for security
  program implementation. Further, the NPR designates that the Assistant Administrator
  for OSPP is to provide direction and oversight for an Agency-wide administrative
  security program that protects SBU information in NASA’s custody. In addition to
  OSPP, the Office of the Chief Information Officer and other Headquarters offices also




  REPORT NO. IG-06-010-R                                                                       3
                                                                                           RESULTS



 have responsibility for specific types of SBU information. For example, export control
 information is considered SBU information, and NPR 2190.1, “NASA Export Control
 Program,” designates the Assistant Administrator of the Office of External Relations as
 responsible for assessing and ensuring that all NASA programs, activities, and exports
 comply with U.S. export control laws and regulations.


Types of SBU Information NASA Uses

 In its November 2005 revision of NPR 1600.1, the Agency provided extensive
 descriptions of the types of SBU information NASA uses. With no Government-wide
 standard criteria identifying SBU information and no terminology defining types of SBU
 information, each individual agency is left to designate the types of information it
 considers to be SBU information. Until November 2005, NASA had designated eight
 types of information as SBU in NPR 1600.1, but the list did not include all types of SBU
 information that NASA used. For example, it did not include

     •       source selection and bid and proposal information;

     •       Small Business Innovative Research (SBIR) data, limited-rights data, and
             Restricted computer software received in the performance of NASA contracts;

     •       information subject to the Privacy Act;

     •       systems security data revealing the security posture of a system; or

     •       information concerning or relating to private entity trade secrets or confidential
             commercial or financial information received by a NASA employee in the course
             of government employment or official duties.

 The November 2005 revision not only listed all of these types of information as SBU, it
 further classified SBU information into three general categories:

         •    Information subject to FOIA: NASA designated as SBU any information
              originated within or furnished to NASA that falls under one or more of the
              exemption criteria of the Freedom of Information Act (5 U.S.C. §552).

         •    Information exempt or restricted from disclosure by statute, regulations,
              contract, or agreement: NASA provides eight examples of this category of SBU,
              such as, information subject to export control under International Traffic in
              Arms Regulations (ITAR) or Export Administration Regulations (EAR) and
              information disclosing a new invention in which the Federal Government owns
              or may own a right, title, or interest.




 4                                                                     REPORT NO. IG-06-010-R
RESULTS



       •   Information that a designated NASA official determines to be unusually
           sensitive: NASA provides 13 examples of this category of SBU, such as
           sensitive scientific and technical information, and NASA information
           technology (IT) internal systems data revealing infrastructure used for servers,
           desktops, and networks.

  With these changes, NASA has increased the types of SBU information described in
  NPR 1600.1 from 8 to 22.


Cross-Reference to Other Documents Containing Additional
  Requirements Related to SBU Information

  Within NASA, management of SBU information is regulated through multiple Agency
  organizations and through multiple NASA regulations and directives. Although
  NPR 1600.1 is NASA’s primary reference document for requirements covering SBU
  information, until November 2005, NPR 1600.1 did not cross-reference other Agency
  documents that contained additional SBU information requirements. The current NPR,
  however, notes that requirements for handling sensitive scientific and technical
  information are described in NASA Policy Directive (NPD) 2200.1, “Management of
  NASA Scientific and Technical Information (STI),” and NPR 2200.2, “Requirements for
  Documentation, Approval, and Dissemination of NASA Scientific and Technical
  Information,” and that requirements for disposing of IT systems that contain SBU
  information are described in NPR 2810.1, “Security of Information Technology.”
  Further, NPR 1600.1 now notes that the requirements in NPR 2810.1, regarding the need
  to (1) certify and accredit IT systems that store SBU information and (2) store and control
  laptop computers and other media containing SBU information, must be met.


Corrective Action Taken

  Revisions incorporated into the 2005 NPR 1600.1 adequately address the issues that we
  communicated to OSPP officials during our audit regarding (1) the incomplete listing of
  the types of SBU information that NASA uses and (2) the lack of cross-referencing to
  other documents that contain additional requirements for specific types of SBU
  information. Therefore, we are not making any recommendations in those areas.




  REPORT NO. IG-06-010-R                                                                      5
                                                                                     RESULTS




                                               FINDING B: COMPREHENSIVE
                                                       SBU INFORMATION
                                                             TRAINING IS
                                                                 NEEDED

        While NASA expanded and clarified the Agency’s requirements with regard to SBU
        information in November 2005, the Agency did not establish a comprehensive
        training program to educate civil servants and contractors about Agency
        requirements for identifying and handling SBU information. The November 2005
        requirements state that the originators of information are required to identify it as
        SBU or not and protect it accordingly. Without a comprehensive training program,
        however, SBU information could be inadvertently disseminated, and that
        dissemination could result in harm to a person’s privacy or welfare, have an adverse
        impact on economic or industrial institutions, or compromise programs or operations
        essential to safeguarding our national interests.


Federal Laws and NASA Requirements on SBU Information
  Training

 Federal Laws. Two laws specifically require training for Federal employees and
 contractor personnel in securing SBU information. The first law, the Computer Security
 Act of 1987, requires that all persons—including contractors—involved in management,
 use, or operation of Federal computer systems that contain sensitive information receive
 periodic training in computer security awareness and accepted computer security
 practice. The second law, the Federal Information Security Management Act of 2002,
 requires that an agency’s Chief Information Officer develop and maintain information
 security programs that include security awareness training to inform Federal personnel—
 including contractors—of information security risks associated with their activities as
 well as their responsibilities in complying with policies to reduce these risks.

 In addition to the preceding Federal laws, the Federal Managers’ Financial Integrity Act
 of 1982 (FMFIA) states that agencies must establish internal administrative controls in
 accordance with the standards prescribed by the Comptroller General, which are
 published in “Standards for Internal Control in the Federal Government” and set out
 management control standards for all aspects of an agency’s operation. One of the
 standards of internal control— control activities—addresses appropriate policies,
 procedures, techniques, and mechanisms that should be in place to manage agency
 activities and identifies training is a necessary component of a good internal control
 program.




 6                                                               REPORT NO. IG-06-010-R
RESULTS



  NASA Requirements. NPD 1600.2D, “NASA Security Policy,” revalidated
  February 1, 2006, offers a generalized statement that NASA provides security and
  protection for, among other things, information. It further notes that securing and
  protecting is to be accomplished by methods including undertaking a security education
  and awareness program designed to solicit the support and involvement of all Agency
  personnel. Training offered by NASA falls into two categories:

     •    The Agency’s annual IT security training, required at all Centers and NASA HQ,
          provides minimal details about SBU information. The training defines the term
          and reminds employees that SBU information, such as trade secrets, proprietary
          information, financial information, and personnel and medical records, must be
          properly marked and kept in a secured location when not under the supervision of
          an authorized person. However, the section devoted to SBU information lacks
          examples of proprietary information, fails to explain the types of financial
          information to consider as SBU, and does not address inventions, bid and
          proposal or source selection information, software, or SBIR data.

     •    NASA Centers’ additional online security training includes guidance about
          managing SBU information. For example, NASA HQ and Kennedy Space Center
          both offer separate training modules that provide specific guidance on protections
          applicable to some of the subcategories of SBU information, such as export
          control, technical information exchange, and the document availability
          authorization process that determines whether scientific and technical information
          can be released. Marshall offers comprehensive training for each type of SBU
          information. The training module, “Safeguarding MSFC’s Administratively
          Controlled Information,” provides detailed explanations about information
          protected by export regulations and FOIA; inventions; source selection,
          proprietary, and privileged information; software; embargoed information; and
          SBIR data. The module also addresses marking and safeguarding and specifies
          consequences for not protecting SBU information.


Training Program for Protecting SBU Information

  The revised NPR 1600.1 established the NASA Security Education and Training, and
  Awareness (SETA) Program. This program emphasizes that management and employee
  involvement are essential to an effective security program. Specifically, the SETA
  Program requires the following:

     •    The Center Director must ensure that adequate procedures are in place whereby
          all NASA employees and contractor personnel are briefed annually regarding
          Center security program responsibilities.




  REPORT NO. IG-06-010-R                                                                   7
                                                                                      RESULTS



     •   Within 20 days of their arrival, a new NASA employee/contractor must receive an
         initial orientation briefing to acquaint them with local security procedures and
         employee responsibilities to protect personnel and Government property from
         theft, loss, or damage.

     •   The responsible supervisor must ensure that job-related, facility-oriented security
         education, and awareness instructions or training for newly assigned personnel are
         timely.

 The November 2005 NPR 1600.1 recognizes that the effectiveness of an individual in
 meeting their security responsibilities is proportional to the degree to which the
 individual understands those responsibilities. It assigns the responsibility for providing
 training about SBU information to the Center Directors and an individual’s manager and
 supervisor. However, the NPR does not ensure that the training being given must be
 comprehensive, in that it does not require that the training cover the policies and
 procedures for identifying, marking, safeguarding, storing, accessing, disclosing,
 protecting, transmitting, destroying, and imposing administrative violations and sanctions
 for all the types of SBU information that NASA handles. As written, the training
 requirements allow each manager, supervisor, and Center Director to determine which
 aspects of the Agency’s SBU information requirements and the types of SBU information
 to include in its training. As a result, each Center’s training will be different. For
 example, a Center Director could choose to only present the marking and safeguarding
 requirements for selected SBU types of information, such as export control, proprietary,
 FOIA, and SBIR data, while another could describe the types of SBU information that
 NASA uses and cover all the Agency’s requirements with regard to SBU information,
 such as marking, storage, disclosure, protection, transmittal, and destruction.


Conclusion

 By establishing the SETA Program, NASA has taken a positive step toward requiring that
 NASA employees and contractors be aware of the policies and procedures for managing
 and protecting SBU information. However, because originators of information are
 required to identify and protect SBU information, they must understand what SBU
 information is and how to prevent its inadvertent dissemination. If NASA employees and
 contractor personnel are unaware of what information needs protecting or are confused
 about how to protect it, SBU information could be inappropriately distributed, causing
 harm to the Agency as well as its projects and programs. Until NASA establishes a
 comprehensive, Agency-wide training program that covers SBU information, it has no
 assurance that the training provided to NASA employees and contractors covers a
 common baseline that incorporates an appropriate range of NASA policies and
 procedures for identifying and handling SBU information.




 8                                                                REPORT NO. IG-06-010-R
RESULTS



Recommendation, Management’s Response, and Evaluation of
  Management’s Response

  We recommend that the Assistant Administrator for the Office of Security Program
  Protection establish an Agency-wide comprehensive training program, to be
  implemented at each Center and HQ, that specifies the policies and procedures for
  identifying and handling SBU information.

  Management’s Response. Management concurred. The Office of Security Program
  Protection will add SBU information to their Web-site no later than May 12, 2006. The
  SBU information will provide employees and contractors access to the Awareness and
  Training information they need for identifying, marking, safeguarding, accessing,
  disclosing, and transmitting the information. In addition, OSPP will develop an Agency-
  wide comprehensive training program for SBU, which will outline the minimum policies
  and procedures that have to be covered by each Center in their SBU training and
  briefings. The training information will be placed on the System for Administration,
  Training, and Educational Resources for NASA (SATERN) by August 1, 2006.

  Evaluation of Management’s Response. Management’s actions are responsive. The
  recommendation is resolved, but will remain undispositioned and open for reporting
  purposes until all corrective actions have been completed and we have reviewed the
  supporting documentation.




  REPORT NO. IG-06-010-R                                                                9
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed work for this audit at Goddard Space Flight Center, HQ, Jet Propulsion
  Laboratory, Johnson Space Center, Kennedy Space Center, and Marshall Space Flight
  Center. Specifically, we interviewed personnel directly involved with export control,
  scientific and technical information, inventions, FOIA, Privacy Act, procurement, and
  security. In addition, we examined various SBU-related documentation generated by
  NASA Headquarters and the selected Centers.

  To assess personnel awareness of SBU information, we analyzed various NASA
  requirements for identifying and protecting SBU information. The requirements
  reviewed included those for export control, scientific and technical information,
  inventions, FOIA, Privacy Act, procurement, security, counterintelligence, software,
  small business and innovative research, and information technology security.

  To help us identify SBU-related laws, regulations, and agency directives that could apply
  to NASA, we contracted with the Federal Research Division (FRD) of the Library of
  Congress to give us a report that set forth the statutes, regulations, and Executive Branch
  directives that define and govern access to SBU information. We compared the SBU
  requirements identified in the FRD report with NASA’s.

  We reviewed the last two NASA Export Control Program Annual audits at the selected
  Centers and followed up on the status of open recommendations.

  We evaluated SBU-related training, including training accessible online, available to
  NASA employees and interviewed employees involved with SBU-related training at HQ
  and selected Centers. In addition, we examined new employee orientation training given
  at HQ and the selected Centers.

  As part of our review of NASA’s policies and procedures to protect SBU information, we
  sampled NASA documents available on the Internet and found that they contained
  meta-data that could be considered SBU. In December 2005, we issued a report to the
  NASA Chief Information Officer and recommended that NASA develop policies and
  procedures to define, recognize, and protect meta-data that may be contained in electronic
  documents. Further, we recommended that NASA provide user awareness training on the
  meta-data policies and procedures developed pursuant to the preceding recommendation.




  REPORT NO. IG-06-010-R                                                                   11
                                                                                     APPENDIX A



  We performed the audit from July 2004 through March 2006. This audit was performed
  in accordance with generally accepted government auditing standards.

  Use of Computer-Processed Data. We did not use computer-processed data to perform
  this audit.


Review of Internal Controls

  We reviewed policies and procedures relating to SBU information and for training
  personnel to recognize and protect such information. NASA’s policies and procedures
  with regard to SBU information are consistent with Federal laws and selected agencies’
  SBU requirements. The Agency has effectively assigned accountability for the security
  of sensitive information to OSPP. Revisions incorporated into NPR 1600.1, “NASA
  Security Procedural Requirements w/Change 1,” issued on November 8, 2005,
  adequately addressed the issues that we had communicated to OSPP officials regarding
  (1) the incomplete listing of the types of SBU information that NASA uses and (2) the
  lack of cross-referencing to other documents that contain additional requirements for
  specific types of SBU information.

  “Standards for Internal Control in the Federal Government” identifies training as an
  important element in creating a good internal control program. The lack of a
  comprehensive training program with regard to SBU information leaves NASA officials
  unable to assure that SBU information NASA controls is marked and handled in a
  manner consistent with NASA policies and procedures and may result in inconsistencies
  and errors regarding management of SBU information. We recommended that OSPP
  establish an Agency-wide comprehensive training program that specifies the policies and
  procedures for identifying and handling SBU information.


Prior Coverage

  The Government Accountability Office (GAO) and the NASA Office of Inspector
  General (OIG) have issued 8 reports of particular relevance to the subject of this report.
  Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
  Unrestricted NASA OIG reports can be accessed at
  http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY06/index.html

  Government Accountability Office

         “Managing Sensitive Information: Departments of Energy and Defense Policies
         and Oversight Could Be Improved,” GAO-06-369, March 7, 2006




  12                                                                REPORT NO. IG-06-010-R
APPENDIX A



        “Managing Sensitive Information: DOE and DOD Could Improve Their Policies
        and Oversight,” GAO-06-531T, March 14, 2006

        “Export Controls: Post-Shipment Verification Provides Limited Assurance That
        Dual-Use Items Are Being Properly Used,” GAO-04-357, January 12, 2004

  NASA Office of Inspector General

        “NASA’s Policies for Protecting Technology Exported to Foreign Entities,”
        IG-06-006, March 14, 2006

        Letter to Congress on NASA’s Export Controls, February 23, 2006

        “NASA Lacks Procedures to Define, Recognize, and Protect Meta-Data,”
        A-04-013, December 19, 2005

         “Cyber Security: The Status of Information Security and the Effects of the
        Federal Information Security Management Act (FISMA) at NASA,” Statement of
        the Honorable Robert W. Cobb, NASA Inspector General, June 24, 2003

        “Goddard Space Flight Center’s Compliance with Export Laws and Regulations,”
        IG-02-016, May 14, 2002




  REPORT NO. IG-06-010-R                                                            13
                                                                                                 APPENDIX C




    Comparison of Federal and Selected Agencies’ SBU
                           Requirements with NASA’s


Federal and Selected Federal Agencies’                         NASA SBU Requirements5
         SBU Requirements4
                Executive Orders (EO)
•      EO 12958 (April 17, 1995), “prescribes a         •   NPR 1600.1, Chapter 5, “Classified National
       uniform system for classifying, safeguarding,        Security and Sensitive But Unclassified
       and declassifying national security                  (SBU) Information Management”
       information.”
•      EO 13292 (March 25, 2003), “prescribe a
       uniform system for classifying, safeguarding,
       and declassifying national security
       information, including information relating to
       defense against transnational terrorism.”
               White House Memoranda
•      Memorandum (March 19, 2002), from the            •   NPR 1600.1, Section 5.24.2.1(c).(2-12),
       White House Chief of Staff to the heads of all       clarifies FOIA exemptions to include
       executive departments and agencies regarding         information determined to be unusually
       the safeguarding and protection of sensitive         sensitive by a designated NASA official such
       homeland security information directs                as Center maps, security measures for
       recipients to “undertake an immediate                infrastructure, and information that could
       reexamination of current measures for                constitute an indicator of U.S. government
       identifying and safeguarding” Government             intentions, capabilities, operations, or
       information “regarding weapons of mass               activities or otherwise threaten operations
       destruction, as well as other information that       security.
       could be misused to harm the security of our
       nation and the safety of our people.” Further,
       they should carefully consider Freedom of
       Information Act (FOIA) exemptions.

•      Pursuant to the White House Memorandum, a
       joint memorandum from the Acting Director
       of the Information Security Oversight Office
       and the Co-Directors of the Justice
       Department’s Office of Information and
       Privacy reiterates the above memorandum to
       control sensitive information by giving full
       and careful consideration to all FOIA
       exemptions.


4
    Federal and selected agencies’ SBU requirements were taken from a report prepared by the Federal
    Research Division of the Library of Congress for the NASA OIG. The report is dated August 2004.
5
    Information is current as of February 2006.




14                                                                            REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’                      NASA SBU Requirements5
            SBU Requirements4
     Presidential/National Security Directives
    (PD/NSC) and National Security Decision
                Directives (NSDD)
  • PD/NSC 24 (November 16, 1977) protects              •   NPR 2810.1, Section 4.11, provides detailed
     unclassified information that would be useful          guidance for using encryption for classified
     to an adversary as the information is                  and unclassified information.
     transmitted by and between Government
     agencies and contractors. References the           •   NPR 2810.1, Section 4.12.1; provides
     need for communications security                       guidance on National security information.
     (COMSEC).
                                                        •   NPR 1600.1, Section 5.15, requires users of
  •   NSDD-189 (September 21, 1985) states that
                                                            COMSEC material to follow the NASA
      “to the maximum extent possible, the
                                                            Central Office of Record Standard Operating
      products of fundamental research remain
                                                            Procedures and the National Security
      unrestricted.”
                                                            Telecommunications Systems Security
  •   NSDD-145 (September 17, 1984) establishes             Instruction 4005.
      initial objectives of policies, and an
      organizational structure to guide the conduct     •   NPR 2200.2B, Section 1.8, policy promotes
      of national activities directed toward                release of scientific and technical data.
      safeguarding systems which process or
      communicate sensitive information from
      hostile exploitation.”
  •   NSDD 42 (July 5, 1990) “establishes initial
      objectives, policies, and an organizational
      structure to guide the conduct of activities to
      secure national security systems from
      exploitation.”
             Federal Laws/Regulations
  •   Freedom of Information Act (FOIA) of 1966,        •   NASA FOIA regulations and 14 CFR 1206,
      while promoting release of information, the           “Availability of Agency Records to Members
      Act provides 9 exemptions and 3 special law           of the Public,” establish NASA policy for
      enforcement exclusions. In 2001, agencies             release of Agency records.
      were encouraged to carefully consider the
      values of safeguarding national security,         •   NPR 1600.1, Section 5.24.2.1(c).(2-12),
      enhancing the effectiveness of law                    clarifies FOIA exemptions to include
      enforcement, protecting sensitive business            information determined to be unusually
      information, and preserving personal privacy          sensitive by a designated NASA official, such
      when determining whether information could            as Center maps, security measures for
      be released.                                          infrastructure, and information that could
                                                            constitute an indicator of U.S. government
                                                            intentions, capabilities, operations, or
                                                            activities or otherwise threaten operations
                                                            security.
           __________________________                             _________________________
  •   Computer Security Act of 1987 defines             •   NPR 2810.1:
      sensitive information and requires agencies to        o Appendix C, “Glossary,” provides a
      identify computer systems that contain                     simpler definition of “sensitive




  REPORT NO. IG-06-010-R                                                                                    15
                                                                                                  APPENDIX C




Federal and Selected Federal Agencies’                       NASA SBU Requirements5
         SBU Requirements4
     sensitive information and to plan security and            information” than the one provided by
     privacy for each system identified. Protection            the Computer Security Act.
     means providing confidentiality, integrity,          o P.1, “Purpose,” and 1.1 “Objectives of
     and/or availability.                                      NASA’s IT Security Program,” discuss
                                                               confidentiality, integrity, and
                                                               availability.
                                                          o 1.2.6 says everyone who uses
                                                               information technology resources bears
                                                               responsibility for ensuring that integrity,
                                                               availability, and confidentiality are not
                                                               compromised.
           _________________________                            _________________________
•    Homeland Security Act of 2002 mandates that      •   NPR 1600.1, 7.17.2.8, states that the
     Federal agencies share relevant and                  Director, Security Management Division
     appropriate homeland security information            shall monitor the threat status in the Agency
     with other Federal agencies, defines                 and maintain close liaison with the
     homeland security, and exempts critical              Department of Homeland Security (DHS) and
     infrastructure information from disclosure           National-level intelligence and security
     under FOIA.                                          agencies for timely and accurate threat
                                                          information.
          _________________________                             _________________________
•    Arms Export Control/International Traffic in     •   NPR 1600.1, Appendix J, “NASA Foreign
     Arms Regulations (ITAR); defines the United          Visitor Security/Technology Control Plan
     States Munitions List                                Sample Template,” contains the
                                                          Security/Technology Transfer Control Plan
                                                          (STTCP), which is used to ensure that
                                                          technology is protected in accordance with
                                                          NASA policy and procedure, and in
                                                          accordance with EAR and ITAR. Section 3
                                                          contains materials that are to be used for a
                                                          briefing on EAR and ITAR.
          _________________________                             _________________________
•    Export Administration Act/Export                     NPR 1600.1, Appendix J (3) -- see previous
     Administration Regulations (EAR); specifies          narrative.
     the Commerce Control List and the Missile
     Technology Control Regime

    Laws/Regulation/Agency Policy-Guidance
•    Nuclear Nonproliferation Act                     •   NPR 2190.1, Section 4.4.1; addresses
                                                          nuclear, missile, and chemical biological
•    Nuclear Proliferation Prevention Act                 proliferation. Foreign partners and end-users
                                                          of NASA exports must be screened for
•    Iran Nonproliferation Act                            nuclear proliferation concerns, missile
                                                          proliferation concerns, and chemical-
                                                          biological proliferation concerns. The section
                                                          refers to 15 CFR Part 740 for missile and
                                                          nuclear screens and 15 CFR Part 742.2 for
                                                          destinations of chemical-biological weapons




16                                                                            REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’                      NASA SBU Requirements5
            SBU Requirements4
                                                            proliferation concern.
        _________________________                                 _________________________
  •   National Defense Authorization Act for FY         •   NPR 2190.1
      1991 - amends ITAR and EAR                            o Chapter 4, “Export Administration
                                                                 Regulations (EAR) Procedures,”
                                                                 describes license exceptions allowed and
  •   National Defense Authorization Act for FY                  refer to 15 CFR 740, which provides
      1999 - limits missile exports to China                     detailed requirements for using the
                                                                 exceptions and warns that China has
                                                                 missile technology projects.
                                                            o Chapter 5, International Traffic in Arms
                                                                 Regulations (ITAR) Procedures,” Use of
                                                                 ITAR exemptions must be coordinated
                                                                 with the Center Export Administrator or
                                                                 the Headquarters Export Administrator.
               Department of Defense
  •   DoD 5200.1-R, Information Security                •   NPR 1600.1, Section 5.24.3, “Marking for
      Program, Apps. C (Classified) and 3                   SBU,” states, “Information designated as
      (Controlled Unclassified): marking “For               SBU will be sufficiently marked so that
      Official Use Only” (FOUO) required at                 persons having access to it are aware of its
      bottom of front cover, title page, first page,        sensitivity and protection requirements. The
      and outside of the back cover. In addition,           lack of SBU markings on information known
      pages that contain FOUO shall be marked at            by the holder to be SBU does not relieve the
      the bottom. Material other than paper                 holder from safeguarding responsibilities.
      documents shall bear markings that alert the          Where the SBU marking is not present on
      holder or viewer. State Dept. designated              information known by the holder to be SBU,
      Sensitive But Unclassified information - same         the holder of the information will protect it as
      requirements as FOUO. Drug Enforcement                SBU. Information protected by statute or
      Administration (DEA) sensitive information            regulation will be marked in accordance with
      requires marking the top and bottom of the            the applicable guidance for that type of
      front cover, title page, outside of back cover,       information. Information marked in
      and each page containing DEA sensitive                accordance with such guidance need not be
      information with “DEA Sensitive.” Similar             additionally marked SBU. If there is no
      marking required for Unclassified Controlled          specific guidance or marking requirements,
      Nuclear Information (UCNI).                           information designated SBU will be marked
                                                            as follows:
                                                            a. Prominently mark the top and bottom of
                                                                the front cover, first page, title page, back
                                                                cover, and each individual page
                                                                containing SBU information with the
                                                                caveat "SENSITIVE BUT
                                                                UNCLASSIFIED (SBU)."
                                                            b. Materials containing specific types of
                                                                SBU information may be further marked
                                                                with the applicable caveat, e.g., "LAW
                                                                ENFORCEMENT SENSITIVE," in order
                                                                to alert the reader of the type of
                                                                information conveyed. Where the




  REPORT NO. IG-06-010-R                                                                                        17
                                                                                 APPENDIX C




Federal and Selected Federal Agencies’        NASA SBU Requirements5
         SBU Requirements4
                                              sensitivity of the information warrants
                                              additional access and dissemination
                                              restrictions, the originator may cite
                                              additional access and dissemination
                                              restrictions. For example:
                                              WARNING: This document is SENSITIVE
                                              BUT UNCLASSIFIED (SBU). It is to be
                                              controlled, stored, handled, transmitted,
                                              distributed, and disposed of in accordance
                                              with NASA policy relating to SBU
                                              information. This information shall not be
                                              distributed beyond the original addressees
                                              without prior authorization of the
                                              originator.
                                         c.   SBU information being transmitted to
                                              recipients outside of NASA, for example,
                                              other federal agencies, state or local
                                              officials, NASA contractors, etc., shall
                                              include the following additional notice:
                                              WARNING: This document is SENSITIVE
                                              BUT UNCLASSIFIED (SBU). It contains
                                              information that may be exempt from
                                              public release under the Freedom of
                                              Information Act (5 U.S.C. 552) or other
                                              applicable laws or restricted from
                                              disclosure based on NASA policy. It is to
                                              be controlled, stored, handled,
                                              transmitted, distributed, and disposed of
                                              in accordance with NASA policy relating
                                              to SBU information and is not to be
                                              released to the public or other personnel
                                              who do not have a valid "need-to-know"
                                              without prior approval of an authorized
                                              NASA official (see NPR 1600.1).
                                         d.   Computer storage media, i.e., disks, tapes,
                                              removable drives, memory sticks, etc.
                                              containing SBU information will be
                                              marked "SENSITIVE BUT
                                              UNCLASSIFIED."
                                         e.   Portions of a classified document, i.e.,
                                              subjects, titles, paragraphs, and
                                              subparagraphs that contain only SBU
                                              information will be marked with the
                                              abbreviation (SBU).
                                         f.   Individual portion markings on a
                                              document that contains no other
                                              designation are not required.
       _________________________                _________________________




18                                                           REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’                      NASA SBU Requirements5
            SBU Requirements4
  •   DOD 5400.7R, DOD FOIA Program provides            •   14 CFR 1206 NASA FOIA regulations,
      guidance on implementing FOIA, describes              “Availability of Agency Records to Members
      safeguards to protect sensitive information,          of the Public,” establishes the policies and
      DOD exemptions to FOIA, markings, and                 procedures for release of NASA records.
      how to disseminate and transmit.

  •   03-CORR-017, FOIA Requests for Critical           •   NPR 1600.1, Section 5.24.6, “Storage,
      Infrastructure Information (March 2003)               Access, Disclosure, Protection, Transmittal,
      expands FOIA exemption 3 to cover critical            and Destruction of SBU,” provides minimum
      infrastructure information (applies to DHS,           requirements for safeguarding SBU
      not to DOD).                                          information.

    Laws/Regulation/Agency Policy-Guidance
  •  DOD Directive 5230.25, Withholding                 •   14 CFR 1206, Subpart 5, authorizes the
     Unclassified Technical Data, states that the           Associate Deputy Administrator or designee,
     Secretary of Defense may withhold from                 after consulting with the General Counsel, to
     public disclosure technical data with military         make final determinations about whether
     or space applications unless regulations               requested records will be made available or
     authorize the export of such data.                     withheld from disclosure.
          _________________________                               _________________________
  • 10 U.S.C. 130, Authority to Withhold from           •   No similar law that applies to NASA was
     Public Disclosure Certain Technical Data               identified.
          _________________________                               _________________________
  • 32 CFR 250, “Withholding of Unclassified            •   No similar law that applies to NASA
     Technical Data from Public Disclosure,”                identified. However, NPR 2200.2B, Section
     implements 10 U.S.C. 130.                              4.2.2, “Protection of Certain STI
                                                            Information,” warns that certain types of
                                                            information must be protected from public
                                                            disclosure (national security-classified,
                                                            export-controlled, personal information
                                                            subject to the Privacy Act, copyrighted
                                                            information, and documents disclosing
                                                            inventions). Refer questions to NASA
                                                            Headquarters or Center Patent or Intellectual
                                                            Property Counsel and the Export Control
                                                            Administrator.
            _________________________                             _________________________
  •   10 U.S.C. 128, Physical Protection of Special     •   No similar law that applies to NASA was
      Nuclear Material: Limitation on                       identified. However, NPR 7120.5C, Section
      Dissemination of Unclassified Information,            3.2.1.2.i, “Complete a Safety and Mission
      states that the Secretary of Defense must             Success Plan,” provides requirements for
      prohibit the unauthorized dissemination of            obtaining approval to launch radioactive
      unclassified information pertaining to security       materials.
      measures, security plans, procedures, and
      equipment for the physical protection of          •   NPR 2190.1, Section 4.4.1, requires foreign
      special nuclear material.                             partners and end-users of NASA exports to
                                                            be screened for nuclear, missile, and chemical
                                                            biological proliferation concerns. Policy




  REPORT NO. IG-06-010-R                                                                                     19
                                                                                                 APPENDIX C




Federal and Selected Federal Agencies’                       NASA SBU Requirements5
         SBU Requirements4
                                                          refers to 15 CFR 740 and 742.2.
         _________________________                             _________________________
•    32 CFR Part 223 implements 10 U.S.C. 128.        •   No similar regulation that applies to NASA
                                                          was identified.
               Department of Energy
•    Safeguards & Security Glossary of Terms          •   NPR 2810.1 Appendix C, provides a simpler
     defines “Sensitive Unclassified Information”         definition of “sensitive information” than the
     and “national security” and “governmental            definition provided by the Computer Security
     interests” as used in the definition.                Act.

•    Directives Management Document for               •   NPR 1600.1 Chapter 10; “Glossary of Terms,
     Proposed DOE O471.X, Identifying                     Abbreviations, and Acronyms,” defines
     Information as FOUO, directs DOE to                  Sensitive But Unclassified (SBU) information
     establish a program to identify and mark             or material determined to have special
     sensitive unclassified information that may be       protection requirements to preclude
     exempt from FOIA disclosure as For Official          unauthorized disclosure to avoid
     Use Only (FOUO). [see DoE O 471.2A                   compromises, risks to facilities, projects or
     below.]                                              programs, threat to the security and/or safety
                                                          of the source of information, or to meet
                                                          access restrictions established by laws,
                                                          directives, or regulations: ITAR, EAR,
                                                          Militarily Critical Technologies List, FAR,
                                                          Privacy Act, Proprietary, FOIA, UCNI,
                                                          NASA Developed Software, STI, source
                                                          selection and bid and proposal information,
                                                          and inventions.
          _________________________                            _________________________
•    42 U.S.C. 2168, Dissemination of                 •   NPR 1600.1 Section 5.25, “Use, Protection
     Unclassified Information, provides a                 and Accountability of Department of Energy
     definition of Unclassified Controlled Nuclear        (DOE) Unclassified Controlled Nuclear
     Information (UCNI) and provides civil and            Information (UNCI),” defines UCNI, requires
     criminal penalties.                                  access only by personnel with a need-to-
                                                          know, prohibits access to foreign nationals
                                                          without approval of the DOE, requires storing
                                                          to prevent unauthorized disclosure, and
                                                          encryption for electronic transmission.

                                                      •   NPR 2190.1 Section 4.4.1 addresses nuclear,
                                                          missile, and chemical biological proliferation.
                                                          Foreign partners and end-users of NASA
                                                          exports must be screened for nuclear
                                                          proliferation concerns, missile proliferation
                                                          concerns, and chemical-biological
                                                          proliferation concerns. The section refers to
                                                          15 CFR Part 740 for missile and nuclear
                                                          screens and to 15 CFR Part 742.2 for
                                                          destinations of chemical-biological weapons
                                                          proliferation concern.




20                                                                           REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’                     NASA SBU Requirements5
            SBU Requirements4
            _________________________                           _________________________
  •   10 CFR Part 1017, “Identification and            •   No similar NASA regulations were identified.
      Protection of Unclassified Controlled Nuclear        However, NPR 1600.1, Section 5.25.3.1,
      Information,” and DOE O 471.2A, “DOE                 requires markings per DOE.
      Information Security Program Directive,”
      state that documents containing UCNI must
      be marked conspicuously as “Not for Public
      Dissemination” prior to transmitting or upon
      retirement. Access is granted on a need-to-
      know basis. Documents must be physically
      protected. Provides civil and criminal
      penalties.
          Nuclear Regulatory Commission
  •   COMSECY-02-0015, Commission Action               •   NPR 1600.1 Section 5.25, “Use, Protection,
      Memo: Withholding Sensitive Homeland                 and Accountability of Department of Energy
      Security Information from the Public - defines       (DOE) Unclassified Controlled Nuclear
      sensitive homeland security information              Information (UNCI),” defines UCNI, requires
      based on draft DHS language not made                 access only by personnel with a need-to-
      public. Generally, information generated by          know, prohibits access to foreign nationals
      the NCR, its licensees, or contractors will be       without approval of the DOE, requires storing
      withheld if its release could provide a clear        to prevent unauthorized disclosure, and
      and significant benefit to an adversary in a         encryption for electronic transmission.
      potential attack.

               Department of State
  •   Volume 12, Foreign Affairs Manual 540,           •   NPR 1600.1, Chapter 10; “Glossary of
      “Scope,” defines SBU.                                Terms, Abbreviations, and Acronyms,”
                                                           defines Sensitive But Unclassified (SBU)
                                                           information or material determined to have
                                                           special protection requirements to preclude
                                                           unauthorized disclosure to avoid
                                                           compromises, risks to facilities, projects or
                                                           programs, threat to the security and/or safety
                                                           of the source of information, or to meet
                                                           access restrictions established by laws,
                                                           directives, or regulations: ITAR, EAR,
                                                           Militarily Critical Technologies List, FAR,
                                                           Privacy Act, Proprietary, FOIA, UCNI,
                                                           NASA Developed Software, STI, source
                                                           selection and bid and proposal information,
                                                           and inventions.
           _________________________                            _________________________
  •   Volume 12, Foreign Affairs Manual 542,           •   NPR 1600.1 Section 5.24.1.2, SBU has
      “Implementation,” changes “Limited Official          previously been designated as For Official
      Use” to SBU.                                         Use Only.
           _________________________                            _________________________
                                                                         Export Control
  •   Volume 12 Foreign Affairs Manual 543,            •   NPR 2190.1, Section P.1, “Purpose,”




  REPORT NO. IG-06-010-R                                                                                    21
                                                                                       APPENDIX C




Federal and Selected Federal Agencies’              NASA SBU Requirements5
         SBU Requirements4
     “Access, Dissemination and Release,”       provides guidance, instructions, and
     addresses distribution restriction.        responsibilities for all NASA employees and
                                                support contractors engaged in activities that
                                                involve the transfer of commodities,
                                                software, or technologies to foreign
                                                individuals or organizations.

                                                Scientific and Technical Information (STI)
                                            •    NPR 2200.2B, Section P.1, “Purpose,”
                                                 identifies requirements for approving,
                                                 publishing, and disseminating STI.

                                                               Inventions
                                            •   NPR 2200.2B, Section 4.2.2.2 states that
                                                information that is otherwise approved for
                                                public release may be withheld if it discloses
                                                an invention.

                                                              Privacy Act
                                            •   14 CFR 1206, “Availability of Agency
                                                Records to Members of the Public,”
                                                establishes NASA policy for release of
                                                Agency records.

                                            •   NPD 1382.17G, Section 1.e.4, prohibits
                                                NASA employees and contractors from
                                                disclosing any information in identifiable
                                                form without the written consent of the
                                                person to whom it pertains.

                                            •   NPR 1450.10C, Appendix C, “Privacy Act
                                                Correspondence,” requires that Privacy Act
                                                correspondence be safeguarded according to
                                                NPR 1382.17.

                                                              Procurement
                                            •   FAR Section 15.207, “Handling proposals
                                                and information” states that proposals shall
                                                be safeguarded from unauthorized disclosure
                                                throughout the source selection process.
                                                Information received in response to a request
                                                for proposal shall be safeguarded adequately
                                                from unauthorized disclosure.

                                            •   NASA FAR Supplement (NFS) Section
                                                1803.104-4, “Disclosure, Protection, and
                                                Marking of Contractor Bid or Proposal
                                                Information and Source Selection




22                                                                 REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’          NASA SBU Requirements5
            SBU Requirements4
                                                Information” states that only Government
                                                employees serving in certain positions are
                                                authorized access to propriety or source
                                                selection information but only to the extent
                                                necessary to perform their official duties.

                                            •   Procurement Information Circular (PIC)
                                                03-03, “Scientific and Technical
                                                Information,” provides guidance on treating
                                                STI produced under research and
                                                development contracts.

                                                                Security
                                            •   NPR 1600.1, Section 5.24.4,
                                                “Responsibilities,” states that officers and
                                                employees designating information or
                                                materials as SBU and those receiving
                                                materials so marked shall be responsible for
                                                properly safeguarding the information
                                                contained therein.

                                                           Counterintelligence
                                            •   NPD 1660.1, “NASA Counterintelligence
                                                (CI) Policy,” Section 1.3, “Responsibilities,”
                                                makes the Assistant Administrator for
                                                Security and Program Protection responsible
                                                for the NASA CI Program.

                                                                Software
                                            •   NPR 7500.1, “NASA Technology
                                                Commercialization Process,” Section 4.2,
                                                requires NASA employees and contractors to
                                                report new technologies and innovations
                                                (including software) as soon as possible after
                                                conception to determine whether intellectual
                                                property protection and patent application are
                                                appropriate.

                                            •   NPD 7500.2, NASA Technology
                                                Commercialization Process,” Section 5,
                                                “Responsibilities,” makes the NASA General
                                                Counsel responsible for protecting
                                                intellectual property rights and for ensuring
                                                that transfer of NASA technology and
                                                intellectual property through licensing
                                                conforms with applicable laws, regulations,
                                                and NASA policies.




  REPORT NO. IG-06-010-R                                                                         23
                                                                                         APPENDIX C




Federal and Selected Federal Agencies’                NASA SBU Requirements5
         SBU Requirements4
                                               Small Business and Innovative Research (SBIR)
                                                                    Data
                                              • NPR 2200.2B, Section 4.5.10.2, states that it
                                                 is NASA policy to restrict all SBIR program
                                                 reports from public disclosure for the period
                                                 specified in the contract for SBIR data unless
                                                 the contractor grants permission to publicly
                                                 release the report sooner.

                                                                      Other
                                              •   NPR 1450.10C, “NASA Correspondence
                                                  Management and Communications Standards
                                                  and Style,” Chapter 6, “Electronic
                                                  Communications,” states that sensitive but
                                                  unclassified information may be sent using e-
                                                  mail if it is encrypted.

                                              •   NPR 1450.10C, Appendix C, states that
                                                  correspondence containing any item of
                                                  information subject to the Privacy Act that is
                                                  removed from a system of records not under
                                                  the control of a system manager or an
                                                  authorized representative, is to be
                                                  prominently identified as a record protected y
                                                  the Privacy Act. NASA Form 1534, “The
                                                  Attached Material is Subject to the Privacy
                                                  Act of 1974,” should be used as a cover sheet
                                                  for the correspondence.

                                              •   NPR 7120.5B, “NASA Program and Project
                                                  Management Processes and Requirements,”
                                                  makes program and project managers
                                                  responsible for protecting information
                                                  generated within their program.

                                              •   NPR 2820.1C, “NASA Software Policies,”
                                                  states NASA’s policy regarding intellectual
                                                  protection of software and the release of
                                                  software is to (a) manage and protect
                                                  software created by or for NASA as valuable
                                                  intellectual property during all phases of the
                                                  life cycle; and (b) establish procedures and
                                                  requirements concerning the release of
                                                  software created by or for NASA that will
                                                  maximize its benefit to NASA, the U.S.
                                                  public, and the U.S.
         _________________________                      _________________________
•    Volume 12, Foreign Affairs Manual 544,   •   NPR 1450.10C, “NASA Correspondence




24                                                                   REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’                     NASA SBU Requirements5
            SBU Requirements4
      “SBU Handling Procedures” discusses                  Management and Communications Standards
      possible encryption.                                 and Style,” Chapter 6, states that sensitive but
                                                           unclassified information may be sent using e-
           _________________________                       mail if it is encrypted.
  •   Volume 12 Foreign Affairs Manual 545,                      _________________________
      “Responsibilities” gives a general warning of    •   NPR 1600.1, Section 5.24.8.2, states that
      consequences for disclosing SBU                      sanctions [for noncompliance with the NPR
      information.                                         section on SBU information] include, but are
                                                           not limited to, warning notice, admonition,
                                                           reprimand, suspension without pay, forfeiture
           _________________________                       of pay, removal, and/or discharge.
  •   Guidance for Drafting SBU Telegrams                        _________________________
      describes how documents containing SBU           •   NPR 1450.10C; Section 6.6.1.2, states that
      information should be labeled.                       telegrams are delivered by telephone or
                                                           printed copy in a few hours to any location
                                                           within the United States (except Hawaii) and
            _________________________                      to Canada.
  •   Volume 5 Foreign Affairs Manual 751.2,                     _________________________
      “Prohibitions When Using Email” states that      •   NPR 1450.10C, Section 6.2.3, states that e-
      unclassified SBU e-mail may be transmitted           mail systems are not secure. Never use them
      on the unclassified Intranet. SBU information        to transmit classified information even if it is
      marked NOFORN (Not for Release to                    encrypted. However, SBU may be sent using
      Foreign Nationals) or with other restricted          e-mail if it is encrypted.
      distribution must be transmitted on the
      classified Intranet. SBU e-mail may not be
      transmitted over the Internet.

           _________________________
  •   Volume 12 Foreign Affairs Manual 660,                     _________________________
      “Communications Security (COMSEC)                •   NPR 2810.1, Section 4.11.2, provides
      (SBU).” The Department of State would not            detailed guidance for using encryption for
      release a copy of this document to the Federal       classified and unclassified information.
      Research Division of the Library of Congress.
                                                       •   NPR 1600.1, Section 5.15, requires users of
                                                           COMSEC material to follow the NASA
                                                           Central Office of Record Standard Operating
                                                           Procedures (CSOP) and the National Security
                                                           Telecommunications Systems Security
           _________________________                       Instruction (NSTSSI) 4005.
                                                                _________________________
  •   Volume 3 Foreign Affairs Manual 4300,                                 Security
      “Disciplinary Action” contains the following     •   NPR 1600.1, Section 1.4, “Violations of
      subsections that deal with various aspects of        Security Requirements,” states that anyone
      disciplinary action: 4310 Disciplinary               who willfully violates, attempts to violate, or
      Action-General; 4320 Disciplinary Action             conspires to violate any regulation or order
      Common Practices; 4330 Admonishment;                 involving the NASA Security Program is
      4340 Reprimand; 4350 Suspension; 4360                subject to disciplinary action up to and
      Separation for Cause; 4370 List of Offenses          including termination of employment and/or




  REPORT NO. IG-06-010-R                                                                                      25
                                                                                                 APPENDIX C




Federal and Selected Federal Agencies’                       NASA SBU Requirements5
         SBU Requirements4
     Subject to Disciplinary Action Foreign               possible prosecution under 18 U.S.C. 799 that
     Services. No one subsection details specific         provides for fines or imprisonment for not
     sanctions or procedures for responding to the        more than 1 year, or both..
     improper or unauthorized release of SBU;
     however, all subsections are relevant since      •   NPR 1600.1, Section 5.24.8.1, addresses
     they describe the sanctions and procedures for       administrative violations and sanctions for
     responding to the improper or unauthorized           employees and non-employees if they
     release or handling of information generally.        disclose information designated as SBU
                                                          without proper authorization.

                                                      •   NPR 1600.1 Section 5.24.8.2, states that
                                                          sanctions [for noncompliance with the NPR
                                                          section on SBU information] include, but are
                                                          not limited to, warning notice, admonition,
                                                          reprimand, suspension without pay, forfeiture
                                                          of pay, removal, and/or discharge.

                                                      •   NPR 1600.1 Section 5.24.8.3, states: "Such
                                                          sanctions may be imposed, as appropriate,
                                                          upon any person determined to be responsible
                                                          for a violation of disclosure restrictions in
                                                          accordance with applicable law and
                                                          regulations, regardless of office or level of
                                                          employment."

                                                      •   NPR 1600.1 Section 5.22.2, states: "CNSI
                                                          [classified national security information] and
                                                          SBU are always the property of the United
                                                          States Government. Individuals who remove
                                                          SBU or CNSI may be subject to disciplinary
                                                          action up to and including prosecution under
                                                          Title 18 and Title 50 U.S.C. and other
                                                          applicable laws."

                                                                        Procurement
                                                      •   FAR 3.101-3(a) states that agencies are
                                                          required by Executive Order 11222
                                                          (May 8 1965) and 5 CFR 735 to prescribe
                                                          "Standards of Conduct" that contain agency-
                                                          authorized exceptions to 3.101-2,
                                                          “Solicitation and Acceptance of Gratuities by
                                                          Government Personnel,” and disciplinary
                                                          measures for persons violating the standards
                                                          of conduct.
                                                      •   14 CFR 1207, which refers to 5 CFR 2635,
                                                          requires employees to comply with
                                                          restrictions and prohibitions on disclosure of




26                                                                           REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’           NASA SBU Requirements5
            SBU Requirements4
                                                •   certain sensitive Government information
                                                    under the FOIA and Privacy Act,
                                                •   proprietary and confidential information,
                                                    and
                                                •   certain procurement information.

                                            •   FAR 3.104-8, “Criminal and civil penalties
                                                and further administrative remedies,” states
                                                that criminal and civil penalties and
                                                administrative remedies, may apply to
                                                conduct that violates the Procurement
                                                Integrity Act. An official who knowingly
                                                fails to comply with the requirements of 3-
                                                104-3 is subject to the penalties and
                                                administrative action set forth in subsection
                                                27(e) of the Act.”

                                            •   NFS 1852.235-73 requires contractors to
                                                review for publication or dissemination of the
                                                data for conformance with laws and
                                                regulations governing its distribution,
                                                including intellectual property rights, export
                                                control, national security, and other
                                                requirements, but does not stipulate
                                                consequences for inappropriate dissemination.

                                                                Proprietary
                                            •   NPR 1600.1 addresses proprietary
                                                information and consequences for
                                                noncompliance with the NPR (see above). In
                                                addition, 18 U.S.C. 1832 states that
                                                organization who steals trade secrets can be
                                                imprisoned not more than 10 years and/or
                                                fined up to $5,000,000.

                                                              Export Control
                                            •   NPR 2190.1, “NASA Export Control
                                                Program,” Section 8.1, “General,” explains
                                                that noncompliance with export control laws
                                                and regulations could result in criminal, civil,
                                                or administrative penalties. Section 8.3.1
                                                refers to specific ITAR and EAR regulations
                                                in the Code of Federal Regulations that
                                                address penalties.

                                            •   NPR 1600.1 provides for violating ITAR and
                                                EAR regulations, both criminal and civil
                                                penalties (criminal - fines up to $1 million




  REPORT NO. IG-06-010-R                                                                           27
                                                                                     APPENDIX C




Federal and Selected Federal Agencies’          NASA SBU Requirements5
         SBU Requirements4
                                             and 10 years imprisonment; civil - fine up to
                                             $100 thousand).

                                               Scientific and Technical Information
                                         •   NPR 2200.2B, "Requirements for
                                             Documentation, Approval, and Dissemination
                                             of NASA Scientific and Technical
                                             Information (STI)" Section 4.2.2., “Protection
                                             of certain STI Information,” states that certain
                                             types of information are required to be
                                             protected from public disclosure. FOIA
                                             provides guidance regarding categories of
                                             information that are exempt from mandatory
                                             release under FOIA. Dissemination of
                                             information may also be restricted under other
                                             laws, regulations, or policy. Restricted-access
                                             information includes export-controlled
                                             information, personal information subject to
                                             the Privacy Act, proprietary information of
                                             the Government or others, copyrighted
                                             information, and documents disclosing
                                             inventions. In addition, certain types of
                                             information are further restricted from
                                             dissemination via NAS public websites. With
                                             the exception of addressing the consequences
                                             for releasing STI information that is subject to
                                             export control requirements, NPR 2200.2B
                                             does not address the consequences for
                                             releasing STI that should be protected from
                                             public disclosure.

                                                             Inventions
                                         •   NPR 2200.2B, Section 4.5.16, “Documents
                                             Disclosing Inventions,” says that information
                                             that is otherwise approved for public release
                                             may be withheld if it discloses an invention.
                                             (See STI above.) NPR 1600.1, Section 1.4.2,
                                             says that anyone who willfully violates,
                                             attempts to violate, or conspires to violate any
                                             regulation or order involving the NASA
                                             Security Program is subject to disciplinary
                                             action up to and including termination of
                                             employment and/or possible prosecution
                                             under 18 U.S.C. 799, that provides for fines
                                             or imprisonment for not more than 1 year, or
                                             both.




28                                                               REPORT NO. IG-06-010-R
APPENDIX C




   Federal and Selected Federal Agencies’          NASA SBU Requirements5
            SBU Requirements4
                                                                 Software
                                            •   NPR 2210.1A, "External Release of NASA
                                                Software," Section 3.6.1, requires compliance
                                                with export control laws and regulations,
                                                which stipulate consequences

                                                                SBIR Data
                                            •   NASA Federal Acquisitions Regulation
                                                (FAR), Supplement (NFS) contract clause
                                                1852.235-73, requires contractors to review
                                                publication or dissemination of the data for
                                                conformance with laws and regulations
                                                governing its distribution, including
                                                intellectual property rights, export control,
                                                national security, other requirements but does
                                                not stipulate consequences for inappropriate
                                                dissemination.

                                                   FOIA and Privacy Act Information
                                            •   14 CFR 1212.800 states: "Failure to comply
                                                with the requirements of the Privacy Act and
                                                this part could subject NASA to civil suit
                                                under the provisions of 5 U.S.C. 552a(g)."

                                            •   14 CFR 1212.801 states: "(a) A NASA officer
                                                or employee may be subject to criminal
                                                penalties under the provisions of 5 U.S.C.
                                                552a(i) (1) and (2). (1) Section 552a(i)(1).
                                                Any officer or employee of an agency, who
                                                by virtue of employment or official position,
                                                has possession of, or access to, agency
                                                records which contain individually
                                                identifiable information the disclosure of
                                                which is prohibited by this section or by rules
                                                or regulations established thereunder, and
                                                who knowing that disclosure of the specific
                                                material is so prohibited, willfully discloses
                                                the material in any manner to any person or
                                                agency not entitled to receive it, shall be
                                                guilty of a misdemeanor and fined not more
                                                than $5,000. (2) Section 552a(i)(2). Any
                                                officer or employee of any agency who
                                                willfully maintains a system of records
                                                without meeting the notice requirements of
                                                subsection (e)(4) of this section shall be guilty
                                                of a misdemeanor and fined not more than
                                                $5,000. (3) These two provisions apply to




  REPORT NO. IG-06-010-R                                                                            29
                                                                               APPENDIX C




Federal and Selected Federal Agencies’      NASA SBU Requirements5
         SBU Requirements4
                                         NASA civil service employees as well as
                                         those employees of a NASA contractor with
                                         responsibilities for maintaining a Privacy Act
                                         system of records. (b) Section 552a(i)(3). Any
                                         person who knowingly and willfully requests
                                         or obtains any record concerning an
                                         individual from an agency under false
                                         pretenses shall be guilty of a misdemeanor
                                         and fined not more than $5,000.




30                                                          REPORT NO. IG-06-010-R
APPENDIX D




                           MANAGEMENT COMMENTS




  REPORT NO. IG-06-010-R                    31
               APPENDIX D




32   REPORT No. IG-06-010-R
APPENDIX E




                                                        Report Distribution


National Aeronautics and Space Administration (NASA)

  Administrator
  Deputy Administrator
  Chief of Staff
    Mission Support Offices
  Chief Information Officer
  Assistant Administrator, Institutions and Management, Security and Program Protection
  Director, Institutions and Management, Infrastructure and Administration, Management
    Systems Division

NASA Centers

  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  Director, Lyndon B. Johnson Space Center
  Director, John F. Kennedy Space Center
     Chief Counsel, John F. Kennedy Space Center
  Director, George C. Marshall Space Flight Center

    Note: A redacted version of this report was distributed to non-NASA organizations
    and individuals and members of Congress. Recipients of the redacted version may
   request the full report from the NASA IG Counsel at 202-358-2575 of from the NASA
                            IG Executive Officer at 202-358-0615.

Non-NASA Organizations and Individuals

  Office of Management and Budget
    Deputy Associate Director, Energy and Science Division
        Branch Chief, Science and Space Programs Branch
  Government Accountability Office
    Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
    Director, NASA Issues, Office of Acquisition and Sourcing Management




  REPORT NO. IG-06-010-R                                                              33
                                                                       APPENDIX E



Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

 Senate Committee on Appropriations
   Senate Subcommittee on Commerce, Justice, and Science
 Senate Committee on Commerce, Science, and Transportation
   Senate Subcommittee on Science and Space
 Senate Committee on Homeland Security and Governmental Affairs
 House Committee on Appropriations
   House Subcommittee on Science, State, Justice, and Commerce
 House Committee on Government Reform
   House Subcommittee on Government Management, Finance, and Accountability
 House Committee on Science
   House Subcommittee on Space and Aeronautics




 34                                                       REPORT NO. IG-06-010-R
Major Contributors to the Report:
   Earl Baker, Attorney Advisor
   Lamar Brickhouse, Auditor
   Ari Elias-Bachrach, IT Specialist
   Wesley Pippenger, Management Analyst
   Carol St. Armand, Auditor
   Janet Overton, Report Process Manager




   REPORT NO. IG-06-010-R                  35
                                                                                          MAY 9, 2006
                                                                        REPORT NO. IG-06-010




                                                                                OFFICE OF AUDITS

                                                                OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Contact the Assistant Inspector General for Auditing at 202-358-1232 for additional copies of this
report. Unrestricted audit reports by the NASA Inspector General’s Office of Audits are available
over the Internet at www.hq.nasa.gov/office/oig/hq/audits/reports/FY06/index.html.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of the Quality
Control Division, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://www.hq.nasa.gov/office/oig/hq/hotline.html#form.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.
